*

r

-5 8 96

No

IN THE SUPREME COURT OF THE UNITED STATES
IN RE: DOUGLAS UEISSERT, Petitioner
Vs

n
Supreme Court, U.S.
FILED

AUG 2 0 2020
OFFICE OF THE CLERK

MICHIGAN, Respondent.
PETITION FOR WRIT OF HABEAS CORPUS TO STATE OF MICHIGAN
FROM MUSKEGON COUNTY CIRCUIT COURT, THE LAST
COURT TO RULE ON THE MERITS OF THIS CASE.
PETITION FOR WRIT OF HABEAS CORPUS -

Douglas liJeissert, #632314
LAKELAND CORRECTIONAL FACILITY
141 First Street
Colduater Michigan
49036-8600

i

f

QUESTIONS PRESENTED
WHETHER STATE TRIAL COURT VIOLATED SIXTH AMENDMENT RIGHTS WHEN IT FORBADE
CROSS EXAMINING ANGLE LEWIS ON MENTAL HEALTH HISTORY AND USE OF PRESCRIPTION
MEDICATION, PROHIBITING ANY EVIDENCE ABOUT HER MENTAL HEALTH ISSUES.

I

I

i

t*

1

f

LIST OF PARTIES

[xl AH parties appear in the caption of the case on the cover page.
[ J ^ZT\d°*0t aPI>ear in the caption of the case on the cover page
petition 2 2 foUo™°
® “ ““
Wh°Se judgmeilt is the

A list of
thin

i

!
i
;

t

!

I

:

:

}

it

;
i

f

TABLE OF CONTENTS
Opinions Below.

.V

Jurisdiction,

VI

,vn
vm

Constitutional Provisions.
Statement of The Case.

,1

Argument.

ITSTDEX OF APPENDICES
APPENDIX A - TRIAL COURT DECISION
APPENDIX B - TRAIL COURT RECONSIDERATION
APPENDIX C - MICHIGAN COURT OF APPEALS ORDER
APPENDIX D - MICHIGAN COURT OF APPEALS RECONSIDERATION
APPENDIX E - MICHIGAN SUPREME COURT ORDER
APPENDIX F - FEDERAL CIRCUIT COURT ORDER

I

>•

TAm.K OF AUTHORITIES
DAVIS v. ALASKA, 94 Set 1105 (1974)
DELAWARE v. FENSTERER, 106 Set 292 (1985)
GORDON v. UNITED STATES, 73 Set 369 (1953)
GREENE v. WAINWRIGHT, 634 F2d 272 (5th. Cir. 1981)
HARGRAVE v. MCKEE, 248 Fed. Appx. 718 (6th. Cir. 2007)
KOON v. UNITED STATES 116 Set 2035 (1996)
POINTERv. TEXAS, 85 Set 1065 (1965)
UNITED STATES v. LINDSTROM, 698 F.3d 1154 (11th. Cir. 1983)
UNITED STATES v. ROBINSON, 583 F3d 1265 (10th. Cir. 2009)

2, 3,4
3
4
4
3,4
2
2
4

5

CONSTITUTIONS
1,3,4,5

U.S. Const. Amend. VL

IV

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF HABEAS CORPUS
PETITIONER RESPECTFULLY PRAYS FOR A WRIT OF HABEAS CORPUS
TO REVIEW-JUDGMENT BELOM

-

- OPINIONS - BEliOM - - - FROM STATE COURTS:
THE OPINION OF THE HIGHEST STATE COURT
APPEARS AT APPENDIX-A AND IS UNPUBLISHED *

TO

REVIEW

THE

MERITS

THE OPINION OF THE MICHIGAN SUPREME COURT APPEARS AT APPENDIX.E
AND IS UNPUBLISHED.
- -JURISDICTION-- FROM 5TATE COURTS:
THE DATE ON WHICH THE HIGHEST STATE COURT DECIDED THIS CASE WAS
12/23/2019. A COPY APPEARS AT APPENDIX-E .
THE

FEDERAL:

CIRCUIT

COURT

DENIED

APPEALABILITY

ON

05/29/2020.

AFTER TRANSFER FROM DISTRICT COURT, ORDER APPEARS AT APPENPIX-F.
THE JURISDICTION
§1651(a)

OF

THIS

COURT

IS

- v -

INVOKEO

UNDER

Title

28

USC

RELEVANCE TO RULE 20.1

Various federal circuit courts (5th, 6th, 10th, 11th) have ruled limiting or prohibiting
evidence of witness’s mental health history and use of prescription medications violated the
sixth amendment of The United States Constitution. The petitioners circuit, the sixth, has
specifically ruled Michigan violated the Sixth Amendment rights under the confrontation clause
and was unreasonable application of Unite States Supreme Court precedent for limiting crossexamination regarding a witness's psychiatric condition. Even with these United States Circuit
Court opinions to the contrary, State Courts continue to ignore these rulings because the United
States Supreme Court has never decided this issue. This is the very type of claim that creates
exceptional circumstances that warrant inis courts discretionary powers. Without this Court
Ruling on this matter constitutional rights of defendants will continue to be violated. If this issue
is decided formally by this court it wffl aid in this courts appeBate jurisdiction, by using its legal
power to hear and decide this case it will set an official precedent for state courts and lower
federal courts to follow. (See also page VIII, and Page 5).
The Michigan State Courts denied petitioner leave to appeal. As noted on page v the
federal district court transferred to the circuit court which denied appealibility via a Motion For
Relief From Judgement or a second Habeas Petition. This court is now the only refief
available. (See also appendix C,D,E, and F.)

VI

CONSTITIJTIOMAT . PROVISIONS
U.S. Const. Amend. VI:
The Confrontation Clause guarantees the right of an accused in a criminal prosecution "to be
confronted with the witnesses against him."

VII

STATEMENT-OF THE CASE
The Michigan Courts failed to apply clearly established Federal
lau in a reasonable manner when it held that Petitioner could not
CROSS EXAMINE Angie Lewis on her mental health history and use of
prescription medications, prohibiting any evidence about her mental
health issues, violating Petitioners Sixth Amendment Rights.
The State charged and convicted Petitioner of FELONY MURDER and
lesser

included

offenses

on

the

theory he

aided

and

abetted Ed

(lewis's crimes. The Petitioner was sentenced to LIFE WITHOUT PAROliE
in prison . The State failed to produce any physical evidence
linking Petitioner to Lewis's crimes, and instead primarily relied
on: 1) Angie Lewis hearsay testimony in which defense was forbade
from

addressing

her

mental

health

issues:

2)

And

Ed

Lewis's

Preliminary Exam testimony, which was played for the jury,

as Ed

Lewis refused to testify at trial.
The same trial court and presiding

exact

confrontation at co-defendants
health issues. Yet did not

Judge

allowed

this

trial as to Angie Lewis's
allow it at Petitioners

mental
trial.

Petitioner seeks justice far his Constitutional claim that merits
relief from this Honorable Court.
Even though the Sixth Circuit Court of Appeals has ruled Michigan
violated Sixth Amendment Rights under the confrontation clause and
was unreasonable application of United States Supreme Court
precedent for limiting cross examination regarding Psychiatric
condition, as has the Fifth, Tenth and Eleventh Circuit Courts,
State Courts continue to ignore those rulings BECAUSE THE UNITED
STATES SUPREME COURT HAS NEVER DECIDED THIS ISSUE.
Had this confrontation of been allowed, it is more likely than not
the outcome of the proceedings would of been different. This writ
would aid this Courts appellate jurisdiction and nettle this issue
completely.

The exceptional circumstances warrant the exercise of

this Courts
obtained in
Petitioner

discretionary powers. Adequate
any other form, or from any

asks

the United States

relief cannot be
other Court. Now,

Supreme Court to allow him to

proceed with his Petition for Writ of Habeas Corpus
* viii -

iS?

ARGIJMKMT

STATE TRIAL COURT VIOLATED SIXTH AMENDMENT RIGHTS WHEN IT FORBADE CROSS EXAMINING ANGIE LEWIS ON HER MENTAL HEALTH HISTORY AND USE OF PRESCRIPTION
MEDICATIONS, PROHIBITING ANY EVIDENCE ABOUT HER MENTAL HEALTH ISSUES.

J

1

A COURT "by definition abuses its discretion when it makes an error of Law".
K0ON V UNITED STATES# 518 US 81# 100(1996). A defendants Sixth Amendment right "to be
confronted with the witness's against him" applies to defendants in state trial’s as
weLl1 as federal’.

OF

CONFRONTATION

POINTER V TEXAS# 85 Sct 1065(1965)." The main and essential1 purpose
IS

TO

SECURE

FOR

THE

OPPONENT

THE OPPORTUNITY OF

CROSS-

EXAMINATION." DAVIS V ALASKA# 415 US 308# 315-16(1974).
The PROSECUTION FlLED a MOTION TO PRECLUDE TESTIMONY REGARDING THE MENTAL'i
HEALTH STATUS OF ANGIS LEWIS. ANGIE LEWIS HAD' PREVIOUSLY ADMITTED SHE TOOK MEDICATION
FOR MENTAL1 HEALTH ISSUES#

SHE HAD PREVIOUSLY BEEN IN A MENTAL HOSPITAL1 FOR

PSYCHIATRIC TREATMENT# AND HAD ATTEMPTED SUICIDE. HER HUSBAND# Ed LEWIS IN INTERVIEW
STATED "MY WIFE'S ON A PlLL# THIS MEDICATION AND IF SHE DOESN'T TAKE IT SHE'S CRAZY."
IN DEFENSE RESPONSE TO PROSECUTION MOTION IT ARGUED IT SHOULD BE ABL!E TO
confront

Angie Lewis on her mental1 heaLth issues and how it effects her credibility

AND MEMORY OF EVENTS. AL1SO WHAT MEDICATION SHE IS TAKING# IF SHE'S TAKING IT AS
PRESCRIBED# IF IT EFFECTS HER MEMORY# WHAT SHE WAS DIAGNOSED WITH AT MENTAL HOSPITAL1
DURING HER STAY# AND REGARDING HER SUICIDE ATTEMPT WHICH IS A WRONGFUL1 AND CRIMINAL1
act in the

State of Michigan. Counsel1 argued defense shouLd not be Limited to put

FORTH FACTS TO THE JURY WHICH AN INFERENCE OF BIAS# PREJUDICE# OF L1ACK OF CREDIBILITY
CAN BE BASED. At NOVEMBER 9TH# 2006 MOTION HEARING(PG. 78*95) COUNSEL IN ADDITION TO
SUPPORTING EARLIER ARGUMENTS FROM RESPONSE BRIEF# ASKED TO GET AND REVIEW ANGIE

Lewis's mental1 heaLth records.
On November 28# 2006 a trial1 court order granted prosecutors motion prohibiting
ANY EVIDENCE ABOUT ANGIE LEWIS'S MENTAL1 HEALTH ISSUES.

"Cross-examination is the principal1 means by which the beLievabil'ity of a
WITNESS AND THE TRUTH OF THE TESTIMONY ARE TESTED." DAVIS# ID. AT 315. IN CASES SUCH
AS THIS ONE# "INVOLVING TRIAL1 COURT RESTRICTION ON THE SCOPE OF CROSS-EXAMINATION#
the

Supreme Court has recognized that Confrontation CLause questions wiLL arise

2/

1
. emasculate
the right of crossexamination itseLf," DELAWARE V FENSTERER, 474 US 15, 19(1985).
BECAUSE SUCH RESTRICTIONS MAY EFFECTIVELY. .

DAVIl REQUIRES that a defendant be allowed to test a witness's perception and
memory via indirect means, such as fl!aws in the witness's story or impeachment
evidence.

Defendant sought to attack directlY Angie Lewis's perceptions and memory of
the very events at issue, arguing her ongoing psychiatric condition caLLed INTO
question

her account of events and was more

SIMILAR TO THE POSSIBILITY OF

UNRELIABILITY RAISED BY QUESTIONS OF MOTIVE OR BIAS THAN TO THAT RAISED BY QUESTION

OF

general' truthfuLness.

Any reasonable application of DAVIS to defendants case wouLd simiLarLy permit
DEFENDANT TO DEVELOP, VIA CROSS-EXAMINATION, FACTS THRU WHICH THE JURORS COUl'd
adequately judge

Angie Lewis's reLiabil’ity. Prohibiting

any cross-examination or

EVIDENCE PERIOD ABOUT ANGIE LEWIS'S MENTAL1 HEALTH ISSUES WAS CONTRARY TO UNITED

States Supreme Court precedent and vioLated rights under the Confrontation CLause.
The United States Court of Appeal's for the Sixth Circuit HAS ALREADY RULED THAT
the Michigan Courts vioLated the Sixth Amendment AS TO THIS VERY ISSUE DEFENDANT
argues.

In HARGRAVE V McKEE, 248 Fed Appx. 718(6th Cir. 2007), the Court found

Limitation of cross-examination regarding psychiatric condition by the Michigan TriaL
Court vioLated defendants Sixth Amendment rights under the Confrontation CLause, and
was unreasonable application of Supreme Court precedent, and the ERROR WAS NOT
HARMLESS.
HARGRAVE HAS THE RIGHT TO CROSS-EXAMINE WARNER REGARDING MENTAL* LIMITATIONS
AFFECTING HER ABILITY ACCURATELY TO PERCEIVE

AND

recaLl'

EVENTS AT ISSUE. HARGRAVE*S

PROPOSED CROSS-EXAMINATION, RAISED A STRONG POSSIBILITY THAT WARNERS PSYCHIATRIC
CONDITION RENDERED HER TESTIMONY UNRELIABLY REGARDING THE VERY EVENTS AT ISSUE, AND,
ACCORDINGLY WAS MORE SIMILAR TO THE POSSIBILITY OF UNRELIABILITY RAISED BY QUESTIONS
OF MOTIVE OR BIAS THAN

THAT RAISED

BY QUESTIONS

3

OF GENERAL1 CHARACTER FOR

\ TRUTHFULNESS.

Where# as here# the governments case may stand or faLL on the jury's beLief or
DISBELIEF OF ONE WITNESS# HER CREDIBILITY IS SUBJECT TO cl’ose scrutiny. GORDON V
U.S.# 73 Sct 369(1955).
DAVIS REQUIRES THAT A DEFENDANT BE ALLOWED TO TEST A WITNESS'S PERCEPTIONS AND
MEMORY VIA INDIRECT MEANS# SUCH AS FLAWS IN THE WITNESS'S STORY OR IMPEACHMENT
EVIDENCE# AND HARGRAVE SOUGHT TO DIRECtLy ATTACK WARNERS PERCEPTIONS AND MEMORY OF
THE VERY EVENTS AT ISSUE# ARGUING THAT HER ONGOING PSYCHIATRIC

condition# cal'Led

INTO QUESTION HER ACCOUNT OF EVENTS.
ANY REASONABLE APPLICATION OF DAVIS TO THE CASE BEFORE US WOuLd SIMIL!ArLy
permit HARGRAVE to deveLop # VIA CROSS-EXAMINATION# FACTS THROUGH WHICH THE JURORS
couLd adequately judge Warners reliability.

Prior to HARGRAVE the Fifth Circuit Court of Appeal's in GREENE V WAIN WRIGHT,
634 F2d 272(5th Cir. 1981) decided petitioners rights were VIOLATED because he was
denied the opportunity

TO PRESENT EVIDENCE OF ANY SORT INCLUDING BY CROSS-

EXAMINATION# REGARDING RECENT HISTORY OF MENTAL' INSTABILITY. THE ABSOLUTE PROHIBITION
EXCEEDS ANY POSSIBLE TRIAL1 COURT DISCRETION. THIS COMPLETE BAR VIOLATES THE SIXTH

Amendment of the constitution. The POINT IS THAT IT WAS FOR THE JURY TO MAKE THE
DETERMINATION TO BELIEVE OR DISBELIEVE THE WITNESS. THE ORDER FROM THE TRIAL1 COURT
PREVENTED THEM FROM DOING SO.

In an identical' decision the Eleventh Circuit Court of Appeal's in UNITED STATES
V LINDSTROM# 698 F3d 1154(11th Cir. 1983) concLuded trial1 COURTS RESTRICTION OF
ACCESS TO A KEY WITNESS'S MEDICAL1 RECORDS AND LIMITATION ON CROSS-EXAMINATION AS TO
WITNESS'S HISTORY OF MENTAL1 ILLNESS VIOLATED THERE RIGHT OF CONFRONTATION UNDER THE

Sixth Amendment. The Court committed reversibLe error in unconstitutionally depriving
appel'Lant of his Sixth Amendment guarantee OF THE RIGHT OF CONFRONTATION AND CROSSEXAMINATION.
i
After HARGRAVE the Tenth Circuit Court of Appeal's gave a SIMILAR
DECISION IN

H

STATES V ROBINSON, 583 F3d 1265 (10ft Or. 2009) FINDING THE COURT VIOLATED THE
CONFRONTATION CLAUSE WHEN IT FORBADE DEFENDANT
CROSS-EXAMING
CONFIDENTIAL INFORMANT ON HIS MENTAL HEALTH HISTORY AND HIS USE OF PRESCRIPTION
MEDICATION, AND COURTS ERROR WAS NOT HARMLESS. REFUSAL TO PERMIT ANY INQUIRY
VIOLATED THE SIXTH AMENDMENT. ROBINSON WAS PROHIBITED FROM QUESTIONING THE
WITNESS ON TWO HIGHLY RELEVANT TOPICS: THE WITNESS'S MENTAL HEALTH AND
fflS
prescription medication use. we hold both limitations constitute reversible
ERROR.
united

CLEARLY THE COMPLETE BAR ON ANY CROSS-EXAMINATION
OR EVIDENCE OF ANGIE
LEWIS'S MENTAL HEALTH ISSUES WAS CONTRARY TO UNITED STATES SUPREME COURT
PRECEDENT AND VIOLATED THE CONFRONTATION CLAUSE OF THE SIXTH AMENDMENT.
ANGIE LEWIS WAS THE MOST IMPORTANT PROSECUTION WITNESS WHO GAVE LIVE
TESTIMONY TO THE JURY. ANGIE LEWIS WAS CONSIDERED RELIABLE ENOUGH TO TESTIFY TO
HIGHLY PREJUDICIAL HEARSAY, YET HER VERY RELIABILITY COULD
^
NOT BE ADEQUATELY
TESTED BECAUSE OF TRIAL COURTS LIMITATIONS ON EVIDENCE, THIS SHOULD OF BEEN FOR THE
JURY TO DECIDE. THERE WAS A VERY GOOD POSSIBILITY THAT ANGIE LEWIS MENTAL
CONDITION AND MEDICATION DID AFFECT HER MEMORY AND HER ABILITY
TO ACCURATELY
PERCEIVE AND RECALL EVENTS AT ISSUE, AS SHE GAVE CONFLICTING STATEMENTS EACH TIME
SHE WAS INTERVIEWED, INCLUDING PERJURY UNDER OATH. IT IS VERY LIKELY THE JURY
WOULD OF FOUND ANGIE LEWIS UNRELIABLE, AND HAD THE JURY FOUND HER UNRELIABLE THE
DEFENDANT LIKELY WOULD OF BEEN ACQUITTED.
The fifth circuit, tenth circuit, eleventh circuit, and the sixth circuit court of appeals have all ruled limiting or
prohibiting all together evidence of witness's mental health history and
use of prescription medications violated
the sixth amendment of the United States constitution. The sixth circuit
specifically ruled Michigan violated
defendants sixth amendment rights under the confrontation
clause, and was unreasonable application of United
Stales supreme court precedent (or limiting cross - examination regarding psychiatric condition. Even with these
United States circuit court opinions to the contrary, state courts continue to ignore these ruhngs because Urn
tinned Stales Supreme Court has never decided this issue. This is the very type of claim the United States
Supreme Court needs to use its valuable and limited time to address, and decide the issue precisely
once and for
all.

Summary aisir> coisrcT USION
hr the trail courts opinion it claims prejudice was not met because the prosecudon presented Ed Lewis also.
Ed Lewis’s standing alone would not of been sufficient He simply was not credible. Ed Lewis claimed three
different people actually Med Frank Sibson, and his preliminary exam statement was littered with doaens of
inconsistent statements. Ed Lewis also claimed at Prelim: "It wasn't supposed to be a robbery"..."lt was just
5

supposed
were on,

to

be

a

cash pick up," (PE 61)
it was like we were expected."

"Door was

open,

lights

(PE 80) and (PE 105). "I
(Danielle Sibson) opened the slider,
but the slider uas
open when me went there,
Ed Lewis earlier claimed Danielle Sibson
opened the door and let him in.
With Ed Lewis's testimony there was
no robbery, no home invasion,
and no felony murder. Ed Lewis later
refused to testify at Petitioners trial,
making Angie Lewie the
most important prosecution witness who gave live testimony by
far.
Prejudice wps absolutely shown, Without Angie Lewis the
Petitioner
more likely than not would of been acquitted. The error in
no way
was harmless • In its opinion for reconsideration,
the trial Court
also added that Angie Lewis s mental health is
not relevant unless
it bears on some specific factor. Many relevant factors
are argued
in brief, including her credibility,
memory of events, motive
bias , and prejudice. Her m-antal health bears
on all these relevant
factors. A new trial is requested.
thought she

CONCLUSION
.
The Petition for Writ of Habeas Corpus should be granted.
DATED:

J/70

—, 2020
Respectfully Submitted.

Douglas Weissert, #632314
In Pro Se
--DECLARATION
I,

Douglas

foregoing

is

Weissert.
true

to

Declare
the

best

under
of

Penalty

his

Knowledge,

Belief.
DATED:

, 2020

Douglas Weissert, #632314
Petitioner In Forma Pauperis

6

of

Perjury

that

the

Information

and

RELEVANCE TO RULE 2C. i

Various federal circuit courts (5tn, 6th, iOth, i ith) have ruied iimiting or prohibiting
evidence of witness’s mentai heaiin history ana use of prescription medications vioiated the
sixth amendment of The United States Constitution. The petitioners circuit, the sixth, has
specifically ruied Michigan violated the Sixth Amendment rights under the confrontation clause
and was unreasonable application of Unite States Supreme Court precedent for limiting crossexamination regarding a witness's psychiatric condition. Even with these United States Circuit
Court opinions to the contrary, State Courts continue to ignore these rulings because the United
States Supreme Court has never decided this issue. This is the very type of claim that creates
exceptional circumstances that warrant this courts (fscretionary powers. Without this Court
Ruling on this matter constitutional rights of defendants will continue to be violated. If this issue
is decided formally by this court it wl aid hi this courts appellate jurisdction, by using its legal
power to hear and decide this case it will set an official precedent for state courts and lower
federal courts to follow. (See also page VIII, and Page 5).
The Michigan State Courts denied petitioner leave to appeal. As noted on page v the
federal district court transferred to the circuit court which denied appealibility via a Motion For
Relief From Judgement or a second Habeas Petition. This court is now Ihe only refief
available. (See also appendix C,D,E, and F.)

VI

